               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-04243-151




    Combined Assessment Program
             Review of the 

     Wilmington VA Medical Center 

         Wilmington, Delaware 





May 20, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Wilmington VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                CAP Review of the Wilmington VA Medical Center, Wilmington, DE



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. Interim VISN Director Comments ......................................................................                        20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              30

  F. Report Distribution .............................................................................................            31

  G. Endnotes ...........................................................................................................         32





VA OIG Office of Healthcare Inspections
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
December 9, 2013.

Review Results: The review covered seven activities.         The facility’s reported
accomplishments were using a mobile outreach primary care clinic and implementing a
Safe Day Call Program.

Recommendations: We made recommendations in all seven of the following
activities:

Quality Management: Establish a policy for scanning health records.

Environment of Care: Provide an emergency eyewash station in the dialysis patient care
area, and lock the dialysis unit’s chemical storage room when unattended. Repair the
clinical laboratory urinalysis section’s ceiling leak. Replace ceiling tiles in the clinical
laboratory urinalysis section and blood bank and in the ambulatory surgery medication
room. Establish a policy addressing radiation equipment inspection, testing, and
maintenance and fluoroscopy quality control. Ensure designated x-ray and fluoroscopy
employees have radiation exposure monitoring completed annually. Post signs in the
radiology waiting and procedure rooms asking female patients to notify staff if they may
be pregnant.

Medication Management: Ensure clinicians conducting medication education
accommodate identified learning barriers and document the accommodations made to
address those barriers. Provide medication lists to patients/caregivers at discharge.

Coordination of Care: Provide patients/caregivers with discharge instructions.

Nurse Staffing: Monitor the staffing methodology that was implemented in August 2013.
Reassess the target nursing hours per patient day for unit 4 East to more accurately
plan for staffing and evaluate the actual staffing provided.

Pressure Ulcer Prevention and Management: Establish an interprofessional pressure
ulcer committee. Accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers. Provide and document
recommended pressure ulcer interventions and pressure ulcer education for patients at
risk for and with pressure ulcers and/or their caregivers. Train designated employees
on how to administer the pressure ulcer risk scale and accurately document findings.
Ensure that patient care areas are clean, that clean and dirty items are stored
separately, and that medications are secured at all times.

Community Living Center Resident Independence and Dignity: Document resident
progress towards restorative nursing goals, modify restorative nursing interventions as


VA OIG Office of Healthcare Inspections                                                           i
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


needed, and document the modifications. Ensure employees who perform restorative
nursing services receive training on and competency assessment for resident transfers.
Require that staff do not provide medical treatments to residents during meals in the
common dining area.

Comments
The Interim Veterans Integrated Service Network Director and Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–29, for
the full text of the Directors’ comments.) We consider recommendations 6, 7, 12, and
13 closed. We will follow up on the planned actions for the open recommendations
until they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
December 8, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                          1
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Wilmington VA Medical Center, Wilmington, Delaware, Report
No.11-00024-152, April 27, 2011).

During this review, we presented crime awareness briefings for 242 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
147 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Mobile Outreach Primary Care Clinic
The facility initiated the mobile outreach primary care clinic to improve access to primary
care, social services, and behavioral health for veterans who are homeless or reside in
rural areas. The mobile clinic has a primary care provider, ancillary nursing staff, and a
social worker who provide services to veterans in southern New Jersey and in southern
Delaware at the Home of the Brave, a transitional living center for homeless veterans.

Safe Day Call Program
The Safe Day Call Program provides all staff members and supervisors with a tool to
actively promote a culture of safety. Staff can anonymously call in and report patient
safety risks, actual events, and near miss situations in a timely fashion without risk of
blame. Every weekday, a call is held that facilitates communication, safety education,
and problem solving across all facility units and services. Action items to resolve
identified risks and issues are immediately assigned to staff to ensure follow-up on
problems. This initiative presents an opportunity for collaboration between services,
departments, and employees. The goals are patient-centered care and patient safety to
help reduce risk of harm to patients, families, caregivers, and staff.




VA OIG Office of Healthcare Inspections                                                          2
                                            CAP Review of the Wilmington VA Medical Center, Wilmington, DE



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                 3
                                             CAP Review of the Wilmington VA Medical Center, Wilmington, DE


NM               Areas Reviewed (continued)                                   Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted:
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
 X     The policy for scanning non-VA care                 The facility lacked a scanning policy.
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                  4
                                            CAP Review of the Wilmington VA Medical Center, Wilmington, DE


NM              Areas Reviewed (continued)                                 Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1. We recommended that the facility establish a policy for scanning health records and that
compliance with the newly established policy be monitored.




VA OIG Office of Healthcare Inspections                                                                 5
                                            CAP Review of the Wilmington VA Medical Center, Wilmington, DE


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the medicine, intensive care, CLC, dialysis, chemotherapy, and ambulatory
surgery units and the emergency, laboratory, and radiology departments. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
10 radiology employee training records. The table below shows the areas reviewed for this
topic.   The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                   
 X     Environmental safety requirements were met.        The dialysis unit patient care area did not
                                                           have an emergency eyewash station.
                                                          The dialysis unit’s chemical storage room was
                                                           unlocked and unattended.
 X     Infection prevention requirements were met.        In the clinical laboratory urinalysis section,
                                                           there were missing ceiling tiles and water
                                                           leaking from the ceiling into a trash can on a
                                                           chair next to instruments used for analysis.
                                                          Ceiling tiles were missing in the ambulatory
                                                           surgery medication room and in the
                                                           laboratory blood bank.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                 6
                                              CAP Review of the Wilmington VA Medical Center, Wilmington, DE


NM             Areas Reviewed for Radiology                                    Findings
       The facility had a Radiation Safety Committee,             
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
 X     Facility policy addressed frequencies of             The facility did not have a policy addressing
       equipment inspection, testing, and                    the frequency of equipment inspection,
       maintenance.                                          testing, or maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
 X     X-ray and fluoroscopy equipment items were           The facility did not have a policy addressing
       tested by a qualified medical physicist before        quality control for fluoroscopy equipment.
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
 X     Designated employees received initial                Two of the x-ray and/or fluoroscopy
       radiation safety training and training thereafter     employees did not have radiation exposure
       with the frequency required by local policy,          monitoring completed during the past
       and radiation exposure monitoring was                 12 months.
       completed for employees within the past year.
 X     Environmental safety requirements in x-ray           Signs were not posted in waiting rooms
       and fluoroscopy were met.                             asking female patients to notify staff if they
                                                             may be pregnant, and only one procedure
                                                             room had such a sign.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
 NA    MH EOC inspections were conducted every
       6 months.
 NA    Corrective actions were taken for                      
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.



VA OIG Office of Healthcare Inspections                                                                       7
                                            CAP Review of the Wilmington VA Medical Center, Wilmington, DE


NM      Areas Reviewed for Acute MH (continued)                            Findings
NA     MH unit staff, Multidisciplinary Safety             
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
 NA    The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
 NA    The facility complied with any additional           
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

2.    We recommended that the dialysis patient care area have an emergency eyewash station.

3. We recommended that processes be strengthened to ensure that the dialysis unit’s
chemical storage room is locked when unattended and that compliance be monitored.

4. We recommended that the clinical laboratory urinalysis section ceiling leak be repaired and
that ceiling tiles in the clinical laboratory urinalysis section and blood bank and in the ambulatory
surgery medication room be replaced.

5. We recommended that the facility establish a policy addressing radiation equipment
inspection, testing, and maintenance and fluoroscopy quality control and that compliance with
the newly established policy be monitored.

6. We recommended that processes be strengthened to ensure that designated x-ray and
fluoroscopy employees have radiation exposure monitoring completed annually and that
compliance be monitored.

7. We recommended that signs be posted in waiting and procedure rooms within radiology
asking female patients to notify staff if they may be pregnant.




VA OIG Office of Healthcare Inspections                                                                 8
                                             CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 33 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
 X     If learning barriers were identified as part of    For the 25 patients with identified learning
       the learning assessment, medication                 barriers, EHR documentation did not reflect
       counseling was adjusted to accommodate the          medication counseling accommodation to
       barrier(s).                                         address the barriers.
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
 X     Patients/caregivers were provided a written        None of the 33 EHRs reflected that
       medication list at discharge, and the               patients/caregivers were provided medication
       information was consistent with the dosage          lists at discharge.
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

8. We recommended that processes be strengthened to ensure that clinicians conducting
medication education accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that patients/caregivers are
provided medication lists at discharge and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                   9
                                           CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 19 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
The area marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
      Patients’ post-discharge needs were identified,
      and discharge planning addressed the
      identified needs.
 X    Clinicians provided discharge instructions to      None of the 19 EHRs contained documented
      patients and/or caregivers and validated their      evidence that patients and/or caregivers were
      understanding.                                      provided with discharge instructions.
      Patients received the ordered aftercare
      services and/or items within the
      ordered/expected timeframe.
      Patients’ and/or caregivers’ knowledge and
      learning abilities were assessed during the
      inpatient stay.
      The facility complied with any additional
      elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that patients/caregivers are
provided with discharge instructions and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                               10
                                             CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on two inpatient units (acute medical/surgical and long-term care).5

We reviewed facility and unit-based expert panel documents and 27 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for acute medical/surgical unit 4 East and the CLC unit for 50 randomly selected days
between October 1, 2012, and September 30, 2013. The table below shows the areas reviewed
for this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
 X     The facility either implemented or reassessed      Initial implementation was not completed until
       a nurse staffing methodology within the             October 2013.
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
 X     The actual nursing hours per patient day met       Unit 4 East’s average actual nursing hours
       or exceeded the target nursing hours per            per patient day were statistically significantly
       patient day.                                        below the target.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

11. We recommended that nursing managers monitor the staffing methodology that was
implemented in August 2013.

12. We recommended that nurse managers reassess the target nursing hours per patient day
for unit 4 East to more accurately plan for staffing and evaluate the actual staffing provided.




VA OIG Office of Healthcare Inspections                                                                       11
                                            CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 9 EHRs of patients with pressure ulcers (5 patients with
hospital-acquired pressure ulcers, 1 patient with community-acquired pressure ulcers, and
3 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected two patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
 X     The facility had an interprofessional pressure    The facility did not have an interprofessional
       ulcer committee, and the membership                pressure ulcer committee.
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                In seven of the nine EHRs, staff did not
       documenting location, stage, risk scale score,     consistently document the location, stage, risk
       and date acquired.                                 scale score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
 X     For patients at risk for and with pressure        Seven of the nine EHRs did not contain
       ulcers, interprofessional treatment plans were     evidence that the recommended interventions
       developed, interventions were recommended,         were provided.
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                    12
                                            CAP Review of the Wilmington VA Medical Center, Wilmington, DE


NM             Areas Reviewed (continued)                                    Findings
 X     The facility defined requirements for patient    Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and      education requirements reviewed:
       education on pressure ulcer prevention and        For five of the applicable six patients at risk
       development was provided to those at risk for        for/with a pressure ulcer, EHRs did not
       and with pressure ulcers and/or their                contain evidence that education was
       caregivers.                                          provided.
 X     The facility defined requirements for staff      Facility pressure ulcer staff education
       pressure ulcer education, and acute care staff   requirements reviewed:
       received training on how to administer the        Five employee training records did not
       pressure ulcer risk scale, conduct the              contain evidence of how to administer the
       complete skin assessment, and accurately            pressure ulcer risk scale, and six records did
       document findings.                                  not contain evidence of how to accurately
                                                           document findings.
 X     The facility complied with selected fire and     We found deficiencies in one patient room as
       environmental safety, infection prevention,      follows:
       and medication safety and security                There were dirty towels and used ostomy
       requirements in pressure ulcer patient rooms.        bags on the floor beside the bed.
                                                         On the table, there were contaminated
                                                            forceps and scissors with clean dressing
                                                            supplies and an unsecured topical
                                                            medication.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

13. We recommended that the facility establish an interprofessional pressure ulcer committee.

14. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that acute care staff provide
and document recommended pressure ulcer interventions and that compliance be monitored.

16. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.

17. We recommended that processes be strengthened to ensure that designated employees
receive training on how to administer the pressure ulcer risk scale and how to accurately
document findings and that compliance be monitored.

18. We recommended that processes be strengthened to ensure that patient care areas are
clean, that clean and dirty items are stored separately, and that medications are secured at all
times and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                     13
                                            CAP Review of the Wilmington VA Medical Center, Wilmington, DE


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 20 EHRs of residents (10 residents receiving restorative nursing services and
10 residents not receiving restorative nursing services but candidates for services). We also
observed four residents during two meal periods, reviewed nine employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. The areas marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                      Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
 X     Resident progress towards restorative nursing     None of the applicable 10 EHRs contained
       goals was documented, and interventions            evidence that facility staff documented
       were modified as needed to promote the             resident progress towards restorative nursing
       resident’s accomplishment of goals.                goals.
                                                         In 5 of the applicable 10 paper copy care
                                                          plans, there was no evidence that facility staff
                                                          documented that interventions were modified
                                                          to promote the residents’ accomplishment of
                                                          goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessment were           Five employee training/competency records
       completed for staff who performed restorative      did not contain evidence of completed training
       nursing services.                                  and competency assessment for resident
                                                          transfers.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                 14
                                           CAP Review of the Wilmington VA Medical Center, Wilmington, DE


NM         Areas Reviewed for Assistive Eating                              Findings
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
 X     Required activities were performed during        Staff provided resident insulin shots in the
       resident meal periods.                            dining room as meals were served.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

19. We recommended that processes be strengthened to ensure that staff document resident
progress towards restorative nursing goals, modify restorative nursing interventions as needed,
and document the modifications and that compliance be monitored.

20. We recommended that processes be strengthened to ensure that employees who perform
restorative nursing services receive training on and competency assessment for resident
transfers.

21. We recommended that processes be strengthened to ensure that staff do not provide
medical treatment to residents during meals in the common dining area.




VA OIG Office of Healthcare Inspections                                                                 15
                                            CAP Review of the Wilmington VA Medical Center, Wilmington, DE
                                                                                               Appendix A


              Facility Profile (Wilmington/460) FY 2014 through
                                  March 2014a
Type of Organization                                                            Secondary
Complexity Level                                                                2-Medium complexity
Affiliated/Non-Affiliated                                                       Affiliated
Total Medical Care Budget in Millions                                           $162.6
Number of:
    Unique Patients                                                            19,558
    Outpatient Visits                                                          109,808
    Unique Employeesb                                                          742
Type and Number of Operating Beds (January 2014):
    Hospital                                                                   60
    CLC                                                                        60
    MH                                                                         NA
Average Daily Census (February 2014):
    Hospital                                                                   22
    CLC                                                                        47
    MH                                                                         NA
Number of Community Based Outpatient Clinics                                    6
Location(s)/Station Number(s)                                                   Sussex County/460GA
                                                                                Kent County/460GC
                                                                                Cape May USCG/460GD
                                                                                Atlantic County/460HE
                                                                                Cumberland County/460HG
                                                                                MOC Wilmington/460HK
VISN Number                                                                     4




a
    All data is for FY 2014 through March 2014 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                                   CAP Review of the Wilmington VA Medical Center, Wilmington, DE
                                                                                                                      Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       17
                                                            CAP Review of the Wilmington VA Medical Center, Wilmington, DE



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                18
                                                                                                         CAP Review of the Wilmington VA Medical Center, Wilmington, DE


                                                                         Metric Definitions
 Measure                       Definition                                                                               Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)        A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                  A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                               A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                     A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                              A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)           A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                            A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                        A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                   A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                     A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                           A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                     A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)        A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)                 A higher value is better than a lower value
 PSI                           Patient safety indicator                                                                 A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                         A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                           A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                  A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                     A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                    A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                   A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                  A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                      A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                           A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                               19
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE
                                                                                        Appendix C
                        Interim VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:        April 4, 2014

          From:         Interim Director, VA Healthcare – VISN 4 (10N4)

       Subject:         CAP Review of the Wilmington VA Medical Center,
                        Wilmington, DE

             To:        Director, Washington, DC, Office of Healthcare Inspections
                        (54DC)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. I have reviewed the responses provided by the Wilmington VA Medical
       Center and I am submitting it to your office as requested. I concur with all
       responses.

       2. If you have any questions or require additional information,
       please contact Barbara Forsha, VISN 4 Quality Management Officer at
       412-822-3290.


        (original signed by:)
       Gary W. Devansky




VA OIG Office of Healthcare Inspections                                                         20
                                       CAP Review of the Wilmington VA Medical Center, Wilmington, DE
                                                                                          Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                      Memorandum


           Date:       3/31/2014

          From:        Director, Wilmington VA Medical Center (460/00)

       Subject:        CAP Review of the Wilmington VA Medical Center,
                       Wilmington, DE

             To:       Director, VA Healthcare – VISN 4 (10N4)

       1. I have reviewed the draft report of the Inspector General’s Combined
       Assessment Program (CAP) of the Wilmington VA Medical Center. We
       concur with the findings and recommendations.

       2. I appreciate the opportunity for this review as a continuing process to
       improve care for our Veterans.


               (original signed by:)
       Robin C. Aube-Warren, FACHE
       Director




VA OIG Office of Healthcare Inspections                                                           21
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the facility establish a policy for scanning
health records and that compliance with the newly established policy be monitored.

Concur

Target date for completion: March 25, 2014

Facility response: The facility has completed a policy for scanning and established a
monitoring process for compliance. The policy clearly delineates how documents will be
reviewed for scanning appropriateness, staff which will do the scanning and how
scanning quality will be checked and reported. Education and training of all staff
involved in the scanning process has been completed. Compliance with the scanning
policy is reported to the Medical Records Council bi-monthly.

Recommendation 2. We recommended that the dialysis patient care area have an
emergency eyewash station.

Concur

Target date for completion: May 30, 2014

Facility response: A temporary eyewash station was installed during the OIG survey and
a permanent plumbed eyewash station will be installed.

Recommendation 3. We recommended that processes be strengthened to ensure that
the dialysis unit’s chemical storage room is locked when unattended and that
compliance be monitored.

Concur

Target date for completion: March 27, 2014

Facility response: The Nurse Manager makes rounds throughout the day, at a minimum
of once daily and checks that dialysis unit’s chemical storage room door is shut and
locked when not in use. As of February 2014, the Nurse Manager has been
documenting door locking compliance. All instances of non-compliance are immediately
addressed with the staff. All appropriate staff were re-educated on March 25–27, 2014
on the importance of keeping the chemical storage room locked.




VA OIG Office of Healthcare Inspections                                                         22
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Recommendation 4. We recommended that the clinical laboratory urinalysis section
ceiling leak be repaired and that ceiling tiles in the clinical laboratory urinalysis section
and blood bank and in the ambulatory surgery medication room be replaced.

Concur

Target date for completion: December 12, 2014

Facility response: The ceiling leaks were due to roof issues. The facility has a
construction plan to repair the roof (Project: 460-13-100 Roof Repair & Replacement).
Bids are due April 4, 2014. The award should be made no later than the end of
June 2014. An interim plan to mitigate leaks was completed during the OIG survey.
The facility installed leak diverters to channel water to drains. Ceiling tiles were
replaced in the ambulatory surgery area.

Recommendation 5. We recommended that the facility establish a policy addressing
radiation equipment inspection, testing, and maintenance and fluoroscopy quality
control and that compliance with the newly established policy be monitored.

Concur

Target date for completion: March 26, 2014

Facility response: The facility developed a formal policy addressing radiation equipment
inspection, testing, and maintenance, and fluoroscopy quality control. Compliance with
the processes was in place at the time of survey and continues.

Recommendation 6. We recommended that processes be strengthened to ensure that
designated x-ray and fluoroscopy employees have radiation exposure monitoring
completed annually and that compliance be monitored.

Concur

Target date for completion: February 19, 2014

Facility response: All designated x-ray and fluoroscopy employees have received
radiation exposure monitoring and will receive monitoring annually. Compliance is
tracked in the Radiation Safety Committee.

Recommendation 7. We recommended that signs be posted in waiting and procedure
rooms within radiology asking female patients to notify staff if they may be pregnant.

Concur

Target date for completion: February 19, 2014

Facility response: Signs have been posted in waiting and procedure rooms within
radiology asking female patients to notify staff if they may be pregnant.



VA OIG Office of Healthcare Inspections                                                         23
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians conducting medication education accommodate identified learning barriers
and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: April 30, 2014

Facility response: The facility will ensure that all clinicians conduct and document
medication education to accommodate patients with identified learning barriers (i.e.
hearing, vision, physical, cognitive, language). The facility has improved the medication
reconciliation process to promote documentation of counseling accomodations using a
Patient Education Assment. A communication plan has been developed to educate
clinicians about the new template. Compliance will be monitored via chart review and
reported to Medical Executive Board.

Recommendation 9. We recommended that processes be strengthened to ensure that
patients/caregivers are provided medication lists at discharge and that compliance be
monitored.

Concur

Target date for completion: April 30, 2014

Facility response: The nurse at discharge will continue to provide the patient/caregiver a
medication list at discharge. The practice of only scanning the wet signature page of
discharge instructions has been stopped. Full discharge instructions are posted in the
electronic health record via discharge instruction notes that clearly state that a
medication list will be provided to the patient or caregiver at discharge. Focus on the
process will be strengthened by adding a specific compliance monitor to be completed
by the unit nurse educators with results reported to the Nurse Practice Council.

Recommendation 10. We recommended that processes be strengthened to ensure
that patients/caregivers are provided with discharge instructions and that compliance be
monitored.

Concur

Target date for completion: June 30, 2014

Facility response: Nurses will continue to document on the nurse discharge note that
the patient/caregiver received and understood the discharge instructions. Focus on the
process will be strengthened by adding a specific compliance monitor to be completed
by the unit nurse educators with results reported to the Nurse Practice Council. Any
identified improvement opportunities will be addressed by the Nurse Practice Council.




VA OIG Office of Healthcare Inspections                                                         24
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Recommendation 11. We recommended that nursing managers monitor the staffing
methodology that was implemented in August 2013.

Concur

Target date for completion: May 30, 2014

Facility response: The facility’s nursing leadership met and developed a monitoring
system to track each nursing unit’s Hours per Patient Day (HPPD). As of January 2014,
each Nurse Manager has been monitoring unit HPPD with each unit’s expert panel.
The quarterly facility expert panel will meet in May, 2014 to assess trends and
recommend changes if needed.

Recommendation 12. We recommended that nurse managers reassess the target
nursing hours per patient day for unit 4 East to more accurately plan for staffing and
evaluate the actual staffing provided.

Concur

Target date for completion: January 2, 2014

Facility response: The facility’s 4E nurse manager in consultation with the Acute Care
Associate Chief Nurse reviewed the unit’s acuity and scope and decreased the Nursing
Hours per Patient Day (NHPPD) to 8.9. This decrease was made due to the
determination to limit cardiac IV treatments to the Intensive Care Unit.

Recommendation 13. We recommended that the facility establish an interprofessional
pressure ulcer committee.

Concur

Target date for completion: December 30, 2014

Facility response: The facility’s interprofessional Integrated Skin Integrity, Wound and
Pressure Ulcer Care Committee provides oversight to the facility’s pressure ulcer
prevention program. The Pressure Ulcer Work Group aggregates and analyzes data.
Discrepancy reports are sent to unit managers designating areas of improvement
opportunity.

Recommendation 14. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: May 30, 2014




VA OIG Office of Healthcare Inspections                                                         25
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Facility response: The facility’s Pressure Ulcer Work Group developed and implemented
an updated note that includes improved documentation of the location, stage, risk score,
and date pressure ulcer acquired. All acute care staff members are being in-serviced
on the use of the new note; training records will be entered into TMS. Chart audits will
be conducted by the members of the Pressure Ulcer Work Group using a standardized
audit form to include monitoring for consistent documentation of pressure ulcers,
including: stage, location, risk score, and adherence to stated standards.

Recommendation 15. We recommended that processes be strengthened to ensure
that acute care staff provide and document recommended pressure ulcer interventions
and that compliance be monitored.

Concur

Target date for completion: May 30, 2014

Facility response: The facility’s Pressure Ulcer Work Group developed and implemented
an updated note that includes accurate documentation of pressure ulcer interventions.
All acute care staff members are being in-serviced on the use of the new note; training
records will be entered into Training and Management System (TMS). Chart audits will
be conducted by the members of the Pressure Ulcer Work Group to include monitoring
for consistent documentation of pressure ulcer interventions.

Recommendation 16. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: April 25, 2014

Facility response: The facility strengthened pressure ulcer education processes. On
admission all acute care patients at risk for pressure ulcers and/or their caregivers will
be given an informational folder, to include a handout from Krames on Demand about
pressure ulcer prevention. On the 4E med/surg unit documentation and review of
information will be noted in the Electronic Health Record (EHR) on the Daily Nursing
Assessment. In ICU, documentation and review of information will be noted in the EHR
via PICIS, an electronic flow charting system. Staff training on the pressure ulcer
education processes is documented in TMS.

Recommendation 17. We recommended that processes be strengthened to ensure
that designated employees receive training on how to administer the pressure ulcer risk
scale and how to accurately document findings and that compliance be monitored.

Concur

Target date for completion: March 31, 2014



VA OIG Office of Healthcare Inspections                                                         26
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Facility response: The facility strengthened pressure ulcer training processes. Training
was provided by unit educators and wound care nurses in October 2013 on the
following topics: Skin Assessment/Reassessment Documentation; Pressure Ulcer
Staging; Use of Braden Scale, What Do the Numbers Mean; Wound Care Products and
Underpads; Wound Management; Skin Integrity and Wound Care in 2014; and Pressure
Ulcer Education. Additionally, one-on-one training/demonstration, return demonstration,
story boards with samples of wound care products, and small group instruction was
completed on the units. Ongoing training provided by the Education Department has
the following objectives: the nurse will be able to accurately perform and document a
head to toe skin assessment; will be able to identify patients at risk for pressure ulcers;
will be able to develop and implement an individualized nursing skin integrity plan of
care. Intensive training has been occurring since October 2013 and will continue
through March 31, 2014. Quarterly training updates will be completed based on audit
results. Documentation of all staff training on pressure ulcers is entered into TMS.
Patient charts are being monitored by the nursing unit educators and reported to the
Pressure Ulcer Work Group.

Recommendation 18. We recommended that processes be strengthened to ensure
that patient care areas are clean, that clean and dirty items are stored separately, and
that medications are secured at all times and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: To strengthen our process that ensures patient care areas are clean,
Nursing staff, Nurse mangers, Environmental Management service (EMS) staff and
EMS leadership now have a bi-weekly meeting to discuss cleanliness of all patient care
areas. A checklist was developed for EMS staff to use, and the EMS supervisor now
makes rounds, and confers with the charge nurse daily to address any issues, provide
them with the assigned EMS mobile phone number, and staff’s name. Nurse managers
and the EMS chief collaborated to obtain separate trash and linen carts for staff to use
and coordinated pickup times of dirty linen and trash with nursing care time so dirty
items are not left in patients rooms for any length of time. Compliance is being
monitored by the Infection Control Committee. Nurse managers make rounds
throughout the day and immediately correct any medication security issues.
Environment of Care rounds and Pharmacy rounds also routinely check for medication
security issues throughout the facility. Pharmacy performs monthly inspections of all
ward stock and documents all elements on the Medication Inspection Form for Wards
and Clinics (VA Form 10-0053) to ensure proper storage and maintenance of ward
stock and reports quarterly to Pharmacy and Therapeutic Council.




VA OIG Office of Healthcare Inspections                                                         27
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


Recommendation 19. We recommended that processes be strengthened to ensure
that staff document resident progress towards restorative nursing goals, modify
restorative nursing interventions as needed, and document the modifications and that
compliance be monitored.

Concur

Target date for completion: June 30, 2014

Facility response: As of January 2014 restorative assessments are being completed on
admission, quarterly, annually, with significant changes, and by consult requests. The
assessment contains the resident’s functional ability, restorative recommendations, and
education. Daily minutes are documented on flow sheets by the caregivers. The flow
sheets include participation minutes and tolerance to activity. Weekly overviews are
documented in the Weekly LPN Notes. These notes include weekly participation and
education. Monthly assessments are documented in the Monthly Nursing Notes.
These notes include monthly participation, assessment of goals, and education.
Accu-Care contains resident’s care plans documented with resident’s goals. Tools for
performance improvement include, but are not limited to: A weekly Interdisciplinary
Team review of all restorative programs and a monthly audit for compliance with
documentation requirements is provided to the Community Living Center Nurse
Manager.

Recommendation 20. We recommended that processes be strengthened to ensure
that employees who perform restorative nursing services receive training on and
competency assessment for resident transfers.

Concur

Target date for completion: May 1, 2014

Facility response: The facility is developing a standardized competency checklist for
restorative nursing services to confirm that all elements of restorative competencies are
completed. The checklist will be used to confirm that all employees who perform
restorative nursing services have training on and competency assessment for resident
transfers. Results will be reported to the Extended Care Council.

Recommendation 21. We recommended that processes be strengthened to ensure
that staff do not provide medical treatment to residents during meals in the common
dining area.

Concur

Target date for completion: June 15, 2014

Facility response: A separate and private room has been provided adjacent to the dining
area for residents desiring to receive any medical treatments such as blood glucose
monitoring, insulin injections, or other medications during meal times or in the common


VA OIG Office of Healthcare Inspections                                                         28
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE


dining area instead of returning to their rooms. Staff have been educated to utilize this
room so medical treatments may be provided in a private setting.




VA OIG Office of Healthcare Inspections                                                         29
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite 	                Gail Bozzelli, RN, Team Leader
Contributors 	          Bruce Barnes
                        Lisa Barnes, MSW
                        Myra Conway, RN
                        Katherine Foster, RN
                        Donna Giroux, RN
                        Randall Snow, JD
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Natalie Sadow, MBA
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         30
                                     CAP Review of the Wilmington VA Medical Center, Wilmington, DE
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Interim Director, VA Healthcare – VISN 4 (10N4)
Director, Wilmington VA Medical Center (460/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Thomas R. Carper, Christopher A. Coons
U.S. House of Representatives: John Carney


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         31
                                               CAP Review of the Wilmington VA Medical Center, Wilmington, DE
                                                                                                  Appendix G

                                                    Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 U.S. Pharmacopeia <797>, Guidebook to Pharmaceutical Compounding–Sterile Preparations, June 1, 2008.
	 10 CFR 20, Subpart F.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                            32
                                                CAP Review of the Wilmington VA Medical Center, Wilmington, DE



4
    References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
    The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    33
